TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Improvements to the E-Help Desk Are
                          Needed to Support Expanding
                        Electronic Products and Services



                                        January 30, 2007

                              Reference Number: 2007-40-026




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          January 30, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improvements to the E-Help Desk Are Needed to
                             Support Expanding Electronic Products and Services
                             (Audit # 200640032)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) E-Help Desk Program is providing quality customer service.

 Impact on the Taxpayer
 The E-Help Desk Program provides assistance to users of IRS electronic products and services
 (e-services). Improvements to the E-Help Desk Program are needed to support the IRS’
 expanding e-services. Ensuring the Program provides quality customer service is essential
 because the number of taxpayers who are electronically filing their tax returns is increasing, and
 the IRS is continuing to offer more e-services.

 Synopsis
 The IRS recognizes the need to provide customers of its
 e-services with the ability to obtain the assistance they may  Improvements are needed to
 need to successfully use these products. Since the inception      ensure the E-Help Desk
 of the E-Help Desk in 2002, the IRS has continued to            Program provides effective
 identify ways to improve Program efficiency and customer             customer service.
 service. However, continued expansion in the availability
 and use of e-services requires that improvements are made
 to ensure the Program can continue to provide effective customer service. We have the
 following concerns about the Program:
                         Improvements to the E-Help Desk Are Needed to Support
                              Expanding Electronic Products and Services



•   Customer satisfaction is not being measured.
•   Quality measures and procedures have not been fully established and developed. The
    Program has no measure to evaluate the accuracy of the responses the E-Help Desk assistors
    are providing to their customers.
•   Call monitoring and electronic case (e-case1) reviews are currently not being used to evaluate
    the quality of the Program. Review of a random sample of 97 e-cases found 4 e-cases
    (4 percent) in which the customers received incorrect answers (i.e., the solutions did not
    address the customer questions). For 7 e-cases (7 percent), the assistors did not adequately
    document the e-cases, and we were unable to determine if customers received the correct
    answers.
•   Processes and procedures have not been developed to ensure predefined solutions2 are
    accurate and current or to ensure management information is accurate and reliable.
    Information contained in the E-Help Support System3 is inaccurate and incomplete. The
    indicator used to show that an e-case was closed on the first contact was sometimes
    inaccurate. Assistors are not creating or updating e-cases for all calls. In addition, Business
    Strategy and Business Architect office management stated they do not review e-cases closed
    with general solutions to determine if new predefined solutions should be created to address
    the specific issues raised by customers.
•   Processes have not been developed to ensure employees complete required training. Review
    of a random sample of 19 assistors determined that none had completed all required training
    for Fiscal Year 2006.
To adequately support the growth of electronic filing and e-services, the IRS must ensure its
E-Help Desk Program is operating efficiently and effectively and is meeting the needs of its
customers and the IRS.

Recommendations
The Commissioner, Wage and Investment Division, should develop (1) a process to ensure
customer satisfaction is timely measured; (2) quality measures as well as a process to assess
progress towards achieving the measures; (3) processes and procedures to ensure predefined
solutions are accurately developed, timely monitored, and appropriately approved; (4) processes
and procedures to ensure management information is complete and accurate; and (5) a process to

1
  E-Help Desk assistors enter information about the callers, the nature of the calls, and the resolutions into electronic
cases called e-cases.
2
  To ensure the consistency of responses provided to customers, the E-Help Desk uses a set of predefined solutions
for common problems.
3
  The E-Help Support System documents the history of customers’ contacts with the E-Help Desk.
                                                                                                                        2
                    Improvements to the E-Help Desk Are Needed to Support
                         Expanding Electronic Products and Services



ensure assistors complete required training; and (6) should realign E-Help Desk Program
assistors under the Business Strategy and Business Architect office.

Response
IRS management agreed with all of our recommendations. Management:
1) Is considering administering a customer satisfaction survey focused specifically on the
   E-Help Desk.
2) Is working to establish quality measures and procedures with plans to add the E-Help Desk
   Program to the Embedded Quality process and implement Contact Recording.
3) Has revised the solutions development process to require documentation of the source or
   origin of solutions, approval before a solution can be placed into production, and an annual
   review of solutions.
4) Will require weekly e-case reviews and develop programming to automatically uncheck the
   Resolved on First Contact field when an e-case is reopened.
5) Has developed a process to ensure assistors have completed required training.
6) Will realign E-Help Desk assistors with the office that establishes policies and procedures.
Management’s complete response to the draft report is included as Appendix VII.
Please contact me at (202) 622-6510 if you have questions or Michael McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                  3
                           Improvements to the E-Help Desk Are Needed to Support
                                Expanding Electronic Products and Services




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Improvements to the E-Help Desk Are Needed to Support Expanding
          Electronic Products and Services..................................................................Page 4
                    Recommendations 1 through 4:.........................................Page 13

                    Recommendations 5 and 6: ..............................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Outcome Measures...............................................................Page 19
          Appendix V – Customers of the E-Help Desk..............................................Page 21
          Appendix VI – Electronic Products Supported by the E-Help Desk ............Page 25
          Appendix VII – Management’s Response to the Draft Report.....................Page 27
             Improvements to the E-Help Desk Are Needed to Support
                  Expanding Electronic Products and Services




                         Abbreviations

BSBA                Business Strategy and Business Architect
e-case              Electronic case
e-file              Electronically file(d)
e-filing            Electronic filing
e-services          Electronic products and services
EFTPS               Electronic Federal Tax Payment System
EHSS                E-Help Support System
IRS                 Internal Revenue Service
U.S.                United States
                        Improvements to the E-Help Desk Are Needed to Support
                             Expanding Electronic Products and Services




                                              Background

The Internal Revenue Service (IRS) provides multiple electronic products and services
(e-services) to tax professionals and payers to allow them to conduct business with the IRS
electronically.1 In Fiscal Year 2006, this allowed
over 74 million individual tax returns and over            E-services is a suite of web-based
8 million business tax returns to be electronically     products that allows tax professionals
filed (e-file). In addition, over 48 million           and payers to conduct business with the
payments were made using the Electronic                  IRS electronically. These services are
Federal Tax Payment System (EFTPS). The   2             available 24 hours a day, 7 days a week
                                                           from almost any computer with an
EFTPS allows taxpayers and tax professionals to
                                                                  Internet connection.
use the telephone, personal computer software,
or the Internet to initiate tax payments.
In 2002, the IRS established the E-Help Desk Program to assist customers with electronic filing
(e-filing) and e-services. There are four E-Help Desk sites located at the following IRS
Submission Processing Sites: Andover, Massachusetts; Cincinnati, Ohio; Austin, Texas; and
Ogden, Utah. E-Help Desk assistors generally answer the telephone calls from 7:30 a.m. to
10:00 p.m., Monday through Friday. Callers can leave a message after business hours. In
addition, customers can fax inquires and some customers have the ability to email inquiries.
Figure 1 provides a 3-year trend for incoming calls by Submission Processing Site.3




1
  E-services is not available to the general public. Only approved IRS business partners, such as electronic filing tax
professionals and payers, are eligible to participate in e-services.
2
  As of August 31, 2006.
3
  Figure 1 includes only those inquiries that originated from an incoming call. These represent 99 percent of
contacts to the E-Help Desk.
                                                                                                               Page 1
                       Improvements to the E-Help Desk Are Needed to Support
                            Expanding Electronic Products and Services



                         Figure 1: Incoming Calls by E-Help Desk Site

                                                 Fiscal Year        Fiscal Year        Fiscal Year
            E-Help Desk Site                        2004               2005               2006

            Andover, Massachusetts                  200,305           169,329            160,166
            Cincinnati, Ohio                         29,241             29,861             33,346
            Austin, Texas                           234,307           183,945            167,032
            Ogden, Utah                              35,845             56,982             64,466
           Source: IRS Toll-Free Telephone Reports for Fiscal Years 2004, 2005, and 2006.4

Customers contacting the E-Help Desk may be experiencing difficulty registering for e-services,
transmitting an e-file tax return, or applying to be an Electronic Return Originator. Customers of
the Program include agents enrolled with the IRS to file
tax returns and make payments, certified public
accountants, and tax software developers with                     Enrolled agents, certified
                                                                public accountants, and tax
nonaccount-related questions and issues concerning                 software developers are
electronic products. Appendix V provides a list of                 customers who use the
E-Help Desk customers. Electronic products supported                    E-Help Desk.
by the E-Help Desk include e-file and e-services, such as
the EFTPS and the Central Contractor Registration.5
Appendix VI provides a breakdown of the specific electronic products supported within each of
the four broad product categories.
To obtain assistance, customers within the United States or its Territories can call toll-free
1-866-255-0654 and international callers can call 1-512-416-7750. Customers are presented
with a series of self-selection menus that direct them to one of the E-Help Desk sites for
assistance. Calls are answered in the order in which they are received. After a caller reaches an
assistor, certain verifications are made to ensure the individual seeking information is authorized
to receive the information. The assistor then uses the E-Help Support System (EHSS) to resolve
the customer’s problem(s). It contains a “solutions” database that houses a set of predefined
solutions for common problems. If one of the predefined solutions does not address the problem,
the assistor can raise the issue to the E-Help Solutions Board,6 which reviews the problem and
determines whether a new solution should be developed.



4
  IRS data included in Figures 1-5 are provided for perspective only and were not audited.
5
  Contractors doing business with the Federal Government are required to register their companies. The Central
Contractor Registration is the means by which companies register.
6
  The E-Help Solutions Board establishes the procedures for submission and approval of solutions.
                                                                                                          Page 2
                    Improvements to the E-Help Desk Are Needed to Support
                         Expanding Electronic Products and Services



E-Help Desk assistors enter information about the caller, the nature of the call, and the resolution
into an electronic case (e-case). Calls that cannot be answered on the first contact are left open
and tracked in the computer system. The e-case serves as the official record of customer contact
and includes information regarding customer type, product type, problem type, and e-case
resolution (e.g., an identification number of the solution used to resolve the e-case). The data are
used to provide formal tracking and reporting of all issues and call types in a common database.
Management reviews system reports to determine types of problems and ways to improve
service. The EHSS is used to standardize processes and procedures.
Oversight of the Program is the responsibility of the IRS Wage and Investment Division
Customer Account Services function. Within the Customer Account Services function, the
Director, Business Strategy and Business Architect (BSBA), is responsible for providing
strategic planning, technical problem solving, and daily management oversight to the E-Help
Desk call sites. The Customer Account Services Submission Processing function is responsible
for the E-Help Desk assistors. The Wage and Investment Division Electronic Tax
Administration office is responsible for all electronic mechanisms used by taxpayers, preparers,
and practitioners to file tax returns; make payments; exchange correspondence; and retrieve
forms, publications, and other information.
This review was performed at the BSBA office in Atlanta, Georgia, and at the E-Help Desk sites
in Andover, Massachusetts; Cincinnati, Ohio; Austin, Texas; and Ogden, Utah, during the period
May through October 2006. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                             Page 3
                        Improvements to the E-Help Desk Are Needed to Support
                             Expanding Electronic Products and Services




                                      Results of Review

Improvements to the E-Help Desk Are Needed to Support Expanding
Electronic Products and Services
The IRS recognizes the need to provide customers of its e-services with the ability to obtain the
assistance they may need to successfully use these products. Since the inception of the E-Help
Desk in 2002, the IRS has continued to identify ways to improve Program efficiency and
customer service. For example, the IRS:
•   Consolidated the six e-file Help Desk sites, which assisted callers with different products and
    activities and used different telephone numbers, into a single Program. The Program
    currently consists of four call sites and one centralized toll-free telephone number. Since the
    consolidation, emphasis has been placed on improving the telephone system, implementing
    tools to manage contacts, and providing multichannel capabilities (telephone, email, and fax).
•   Implemented the EHSS, which is a tool used for customer interaction and tracking. The
    EHSS documents the history of customers’ contacts with the E-Help Desk. Prior to the
    implementation of this System, the Program did not have a way to record, track, and identify
    problems and trends for e-file or e-service products.
•   Obtained Next Available Technology, which seeks to improve the overall level of service by
    sending calls to the next available assistor, enterprise-wide, that has the necessary skills to
    answer the customer’s question. The necessary technology has been installed and is ready
    for use. However, the Next Available Technology cannot be implemented until the BSBA
    office negotiates a Memorandum of Understanding with the National Treasury Employees
    Union.
Taxpayers are continuing to elect to e-file, and the IRS is continuing to offer more e-services.
Since 2002, the IRS has added e-services such as online registration for e-services and transcript
delivery service, which allows eligible tax professionals to request and receive account
transcripts, wage and income documents, and tax return transcripts. The IRS has also added
electronic account resolution, which allows tax professionals to electronically inquire about
individual or business account problems, refunds, installment agreements, and missing payments
or notices. In Fiscal Year 2007, the IRS plans to offer additional electronic products, including
e-services for Reporting Agents7 and income verification express services, which provide

7
 A Reporting Agent is an accounting service, a franchiser, a bank, or other person who is authorized to prepare
electronically an Employer’s Annual Federal Unemployment (FUTA) Tax Return (Form 940), Employer’s
Quarterly Federal Tax Return (Form 941), and Employer’s Annual Federal Tax Return (Form 944).
                                                                                                            Page 4
                       Improvements to the E-Help Desk Are Needed to Support
                            Expanding Electronic Products and Services



2-business day processing and delivery of return transcripts. Customers having difficulty using
these new products will be supported by the E-Help Desk Program.
With this continued expansion in the availability and use of e-services, improvements are needed
to ensure the Program can continue to provide effective customer service. Figure 2 provides
Fiscal Years 2005 and 2006 volumes associated with the categories of electronic products
supported by the E-Help Desk.
      Figure 2: Volumes of Electronic Products Supported by the E-Help Desk
                                   (in millions)

                                                            Fiscal Year 2005        Fiscal Year 20068
       Product Category                                         Volumes                 Volumes

       E-file                                                        68                       72
       EFTPS                                                         78                       82
       E-Services                                                    55                       90
       Central Contractor Registration                        Not applicable                 .003

       Totals                                                        201                     2449
     Sources: Websites IRS.gov, eta.hq.irs.gov, and ccr.gov and presentation provided by the IRS.

To adequately support the growth of e-filing and e-services, the IRS must ensure its Program is
operating efficiently and effectively and is meeting the needs of its customers and the IRS. This
requires developing a measurement system to assess the quality and effectiveness of the Program
and ensuring the management information system produces accurate and complete data with
which to monitor the Program. In addition, the present organizational alignment of the Program
creates a situation in which the BSBA office, which establishes the policies and procedures, does
not have control over the personnel responsible for carrying out these policies and procedures.
During the course of the audit, we brought our concerns to the attention of BSBA office
management. Management indicated that they have already begun to take actions to address our
concerns.




8
  Totals for Fiscal Year 2006 are as of September 21, 2006; September 22, 2006; September 18, 2006; and
August 31, 2006, respectively.
9
  Total was rounded for readability.
                                                                                                          Page 5
                    Improvements to the E-Help Desk Are Needed to Support
                         Expanding Electronic Products and Services




A quality measurement system is needed to monitor the quality and effectiveness
of the E-Help Desk Program
Modern management practices and various statutory and regulatory provisions require the IRS to
set performance goals for organizational units and to
measure the progress towards achieving those goals. To        The E-Help Desk Program
fulfill these requirements, the IRS has established a        does not currently measure
balanced performance measurement system designed to          Customer Satisfaction or the
align with the IRS’ mission and goals at all levels of the    Accuracy of Responses to
                                                                     Customers.
organization. The balanced measures encompass three
components: Customer Satisfaction, Employee
Satisfaction, and Business Results. The Business Results Measures consist of numerical scores
determined under the Quality Measures and the Quantity Measures. The Program has not fully
established quality measures or goals or developed processes and procedures to measure the
progress towards achieving those goals.

Customer satisfaction is not being measured
Although Program guidelines detail specific actions to be taken to measure customer satisfaction,
either these actions were not taken or there is no documentation to support the actions that were
taken. Guidelines indicate that customer satisfaction will be measured from feedback obtained
from:
o The Nationwide Tax Forums. The last time formal feedback was obtained was via the
  2003 Nationwide Tax Forum. BSBA office management stated they have not held additional
  focus groups since 2003 because they wanted to address the recommendations from the
  2003 Nationwide Tax Forum before obtaining new feedback. BSBA office management
  stated they are planning to obtain feedback during the 2007 Nationwide Tax Forum.
o The Software Developers Conference. BSBA office management stated they have attended
  these conferences annually. However, the BSBA office did not maintain documentation to
  support the feedback it received at these conferences.
o The Council for Electronic Revenue Communication Advancement. BSBA office
  management stated they have attended these conferences annually, except for the
  2006 conference. However, the BSBA office did not maintain documentation to support the
  feedback it received at these conferences.
The BSBA office submitted a narrative justification to Wage and Investment Division
management for approval to establish an E-Help Customer Satisfaction Project. The request was
submitted on June 19, 2006. The purpose of this Project is to survey E-Help Desk customers to
determine their satisfaction with E-Help Desk services.



                                                                                          Page 6
                    Improvements to the E-Help Desk Are Needed to Support
                         Expanding Electronic Products and Services



Quality measures and procedures have not been fully established and developed
The Program has three quality measures and goals: Resolved on First Contact (95 percent),
Level of Service (85 percent), and Percentage of E-Cases Opened Versus Incoming Calls
(85 percent). However, the Program has no measure to evaluate the accuracy of the responses
the E-Help Desk assistors are providing to their customers.
Although E-Help Desk guidelines implemented in March 2006 require managers to monitor a
minimum of two calls, review a minimum of two e-cases for each assistor each month, and
document the results, there are no procedures in place to ensure these reviews are being
completed. Calls are currently not being monitored because the BSBA office is in negotiations
with the National Treasury Employees Union on aspects of the monitoring process. Review of a
random sample of 20 of 168 employees (5 employees from each E-Help Desk site) determined
that e-case reviews either were not performed or the results of the e-case reviews were not
maintained for the months of May and June 2006.
Also, neither the call monitoring nor the case reviews are currently being used to evaluate the
quality of the Program. Our review of a random sample of 97 e-cases found that in 4 e-cases
(4 percent) the customers received incorrect answers (i.e., the solutions did not address the
                                         customer questions). For 7 e-cases (7 percent), the
                                         assistors did not adequately document the e-cases, and
            We estimate that
       16,101 customers received         we were unable to determine if the customers received
    incorrect answers and another        the correct answers. Projecting our results over the
      28,178 e-cases do not have         universe of 390,461 e-cases closed with solutions, there
      adequate documentation to          is a potential that 16,101 customers received incorrect
       assess the accuracy of the
                                         answers and that another 28,178 e-cases have inadequate
          responses provided.
                                         documentation to assess the accuracy of the responses
                                         provided to the customers.
Without an accuracy measure and procedures and processes in place to monitor the quality of the
Program, the effectiveness of the Program cannot be determined. The BSBA office plans to
implement Contact Recording, which is an automated quality monitoring system that captures
voice elements of customers’ contacts and employees’ corresponding computer desktop
activities. Contact Recording is used in the IRS Toll-Free Telephone Program to both monitor
employee performance and measure program quality. However, the benefit of Contact
Recording will not be fully realized without implementation of an operational quality review
system.




                                                                                          Page 7
                          Improvements to the E-Help Desk Are Needed to Support
                               Expanding Electronic Products and Services



Processes and procedures have not been developed to ensure predefined
solutions are accurate
To ensure the consistency of responses provided to customers, the E-Help Desk uses a set of
predefined solutions for common problems. The predefined solutions allow assistors to resolve
customer problems quickly and efficiently. Additionally, the BSBA office is exploring the
option of posting these solutions on the IRS public website, IRS.gov, as a self-assistance option
for customers.
However, there are no requirements to document the steps taken to create the predefined
solutions and ensure they are accurate. Although our review of 15 solutions identified only
1 partially inaccurate solution, as the Program grows and new solutions are added, it is essential
that all steps are taken to ensure the solutions are accurate, including managerial reviews and
approvals.
Also, processes and procedures have not been developed to ensure existing solutions are
periodically reviewed to ensure they are current and accurate. Solutions can become obsolete or
inaccurate as e-services change. For example, one solution we reviewed related to the IRS
TeleFile Program,10 which was discontinued as of August 2005. However, the solution was not
declared to be expired (no longer valid) until January 2006. A solution review team was created
in March 2006, and as a result of its review, 81 (15 percent) of 542 of the predefined solutions
were expired or superseded (modifications needed to be made to the solutions).11 Procedures are
needed to ensure periodic reviews are completed, including documenting the specific reasons the
solutions were expired or superseded. This will help ensure the solutions remain accurate.

Processes and procedures need to be developed to ensure management
information is accurate and reliable
Information contained in the EHSS is inaccurate and incomplete. An analysis of EHSS data
determined the information relating to e-cases closed on the first contact was inaccurate. In
addition, there are indications that the EHSS is incomplete because assistors are not creating or
updating e-cases when calls are handled. Furthermore, BSBA office management stated they do
not review e-cases with general solutions to determine if new predefined solutions should be
created to address the specific issues raised by customers.




10
     The TeleFile Program allowed taxpayers to file simple tax returns by telephone.
11
     The solutions were expired or superseded based on a March 2006 BSBA office initiative to review all solutions.
                                                                                                             Page 8
                       Improvements to the E-Help Desk Are Needed to Support
                            Expanding Electronic Products and Services



The Resolved on First Contact indicator is not reliable
IRS customers expect accurate assistance from the IRS, preferably on their first contact.
Resolving a customer’s issue on the first contact saves both the customer and the IRS the need to
expend time and resources on subsequent contacts to resolve the same issue. Program guidelines
require assistors to input a Resolved on First Contact indicator on the e-case in the EHSS. If a
customer calls back with the same issue, the assistor is to remove the indicator. The indicator is
not reliable because assistors are not always able to identify previously created e-cases for a
customer calling back with the same issue and the assistors are not correctly inputting the
indicator.
EHSS guidelines do not require assistors to enter identifying customer information into e-cases;
therefore, the e-cases do not always contain sufficient information to identify customers. As a
result, assistors are not always able to identify and retrieve the previous e-case and remove the
Resolved on First Contact indicator, even though the customer has called back with the same
issue. An analysis of 543,515 e-cases12 identified that 378,381 (70 percent) did not contain
identifying customer information.
In addition, an analysis of the 543,515 e-cases showed 538,298 (99 percent) of the contacts
contained a Resolved on First Contact indicator. However, 18,945 (4 percent) of these e-cases
were not closed on the date the call was received, which could indicate these cases were not
resolved on first contact. BSBA office management indicated they have made a system change
that will allow an assistor who did not create the e-case to uncheck the Resolved on First Contact
indicator if the e-case is reopened.

E-case data are incomplete
Assistors are not creating e-cases for all calls or are using general solutions to close e-cases.
Program guidelines require each customer contact to be documented as a new or existing e-case.
However, a review of key Program statistics identified that e-cases are not being created or
updated for every call. For example, for Fiscal Year 2006, the E-Help Desk sites answered
358,786 calls. However, e-cases created totaled only 261,909, with 96,877 calls (27 percent)
being answered without an e-case being created. We recognize that some of these calls may be
related to a previous contact. However, because customer information is not always maintained,
it is impossible to determine the number of these 96,877 calls that would not result in an e-case
being created.
The BSBA office continually stresses the need to create e-cases. However, Figure 3 shows that
assistors created e-cases for only about 72 percent of answered calls for Fiscal Years 2005 and
2006.


12
  The EHSS data extract included contacts for both open and resolved cases made with the E-Help Desk during the
period July 9, 2004, through June 1, 2006.
                                                                                                        Page 9
                             Improvements to the E-Help Desk Are Needed to Support
                                  Expanding Electronic Products and Services



              Figure 3: Percentage of E-Cases Opened Versus Calls Answered

                                                         Fiscal Year            Fiscal Year
                    E-Help Desk Site                        2005                   2006

                    Andover, Massachusetts                   51%                    68%
                    Austin, Texas                            77%                    76%
                    Cincinnati, Ohio                         78%                    66%
                    Ogden, Utah                              83%                    82%

                    Program Average                          72%                    73%
                  Source: IRS Toll-Free Telephone Reports for Fiscal Years 2005 and 2006.13

EHSS downtime also affects the creation of e-cases. System downtime occurs when assistors are
unable to access the EHSS to add or update e-cases. Procedures require assistors to handwrite
information relating to the calls during the period the EHSS is down. If it is down for fewer than
4 hours, the assistors are instructed to go back and enter the information into the EHSS.
However, assistors advised us that there were times when the System was down for fewer than
4 hours, but they did not update the EHSS.
BSBA office management believes EHSS downtime is minimal. However, an analysis of
System downtime shows the EHSS was down 34.4 hours during the period August 21 through
September 15, 2006. Figure 4 presents EHSS downtime results.
                                        Figure 4: EHSS Downtime

                                                   Days When System                  Total Hours
                                                     Downtime Was                    System Was
              E-Help Desk Site                        Experienced                       Down
              Andover, Massachusetts                           1                           2.58
              Austin, Texas                                    4                           8.15
              Cincinnati, Ohio                                 5                           5.02
              Ogden, Utah                                      3                          18.65

              Totals                                          13                          34.40
             Source: Information obtained from the four E-Help Desk sites for the period August 21
             through September 15, 2006.


13
     As of August 3, 2006.
                                                                                                     Page 10
                          Improvements to the E-Help Desk Are Needed to Support
                               Expanding Electronic Products and Services



General solutions are solutions used when a predefined solution does not address the customer’s
inquiry. Of the 533,41714 e-cases, 72,205 (14 percent) e-cases used general solutions. BSBA
office management stated they do not review the e-cases for which general solutions were used
to determine if new predefined solutions should have been created to address the specific issues
raised by the customers. Figure 5 provides a breakdown by business unit of the number of times
general solutions were used.
                       Figure 5: General Solutions Used, by Business Unit

                                                                                     Percentage of
                                                                Total General       General Solutions
         Business Unit            Total Solutions Used         Solutions Used            Used
         Business                           45,419                    5,054                  11%
         Electronic Services               225,968                   21,701                  10%
         Employment                         32,069                    4,523                  14%
         Individual                        229,961                   40,927                  18%

         Totals:                           533,417                   72,205                  14%
        Source: E-Help Desk Solutions Database from May 2004 to July 2006.

Inaccurate and incomplete management information contained in the EHSS affects the ability of
the BSBA office to accurately report business results. If the above cited issues are not addressed,
the IRS is unlikely to be able to accurately measure progress towards meeting Program goals.

Processes have not been developed to ensure employees complete required
training
Review of a random sample of 19 assistors determined that none had completed all the
Fiscal Year 2006 required training. In addition, the BSBA office did not maintain
documentation to support assistors’ training. Although the BSBA office obtained training plans,
it did not have a process to ensure the training was completed.
Guidelines state that training is critical to the accomplishment of the goals and objectives of the
Program. The Program curriculum is designed to provide assistors with the skills needed to
perform their jobs. Training includes refresher courses in writing and the use of various software
programs (email, spreadsheet, etc.). However, the additional required courses are designed to
provide specific training on those technical areas in which assistors will be providing support to
customers. Figure 6 identifies some of the required technical training, the number of assistors
that were required to take the training, and the number of assistors that completed the training.

14
     Represents e-cases included in the E-Help Desk Solutions Database from May 2004 to July 2006.
                                                                                                     Page 11
                          Improvements to the E-Help Desk Are Needed to Support
                               Expanding Electronic Products and Services



              Figure 6: Required Technical Training for 19 Assistors Sampled

                                                  Assistors                                   Percentage of
                                                 Required to        Assistors Who             Assistors Who
 Training Course                                  Complete          Completed the             Completed the
 Description                                       Course              Course                Required Course

 IRS e-file for Submission
                                                       10                    4                       40%
 Processing
 Business Master File,15 Form 1065,
                                                        5                    0                        0%
 Form 1120, and Form 104116
 Business Master File,
                                                        4                    2                       50%
 Form 940/Form 94117
 E-Help Refresher Training                             19                    7                       37%
 Using the E-Help Support System                       19                    6                       32%
Source: Our analysis of information provided by the IRS relating to E-Help Desk assistor training.

  Ensuring assistors complete required training will be of greater importance as the IRS moves
  forward with implementation of the Next Available Technology. This will require all assistors to
  have training on all e-services supported by the Program. Currently, assistors specialize in
  specific electronic products.
  The BSBA office noted that the inability to ensure required        With the current organizational
  training is completed is an example of a problem with the             alignment, the BSBA office
  organizational alignment of the Program. The BSBA office                  creates policies and
                                                                      procedures but does not have
  establishes the policies and procedures for the Program;
                                                                         control over the assistors
  however, it does not have control over the personnel                 responsible for carrying out
  responsible for carrying out these policies and procedures.        these policies and procedures.
  The BSBA office develops the policies and procedures
  relating to the necessary training E-Help Desk assistors are
  required to complete, but the assistors are assigned to the Submission Processing function.
  The mission of the Program is to provide superior help desk support for IRS e-government
  programs by using multichannel communication and case management tools. Realigning the
  assistors under the control of the BSBA office would ensure the organization that establishes the

  15
     The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
  employment taxes, income taxes on businesses, and excise taxes.
  16
     U.S. Return of Partnership Income (Form 1065); U.S. Corporation Income Tax Return (Form 1120); and U.S.
  Income Tax Return for Estates and Trusts (Form 1041).
  17
     Employer’s Annual Federal Unemployment (FUTA) Tax Return (Form 940) and Employer’s Quarterly Federal
  Tax Return (Form 941).
                                                                                                           Page 12
                    Improvements to the E-Help Desk Are Needed to Support
                         Expanding Electronic Products and Services



policies and procedures for the Program is also the organization responsible for the assistors who
carry out these policies and procedures.
To ensure the Program is providing superior customer service, it is essential that assistors
complete required training and quality performance measures are established. Processes to
measure progress towards meeting those performance measures also need to be developed.
These improvements are needed to ensure results from measures are accurately communicated to
customers, stakeholders, and other interested parties.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Develop a process to ensure customer satisfaction is timely measured.
       Management’s Response: IRS management agreed with the recommendation.
       Management is considering administering a Fiscal Year 2007 E-Help Desk customer
       satisfaction survey and a focus group for the 2007 IRS Nationwide Tax Forums.
Recommendation 2: Develop quality measures as well as a process to assess progress
towards achieving the measures. This should include a measure of the accuracy of responses
provided to customers.
       Management’s Response: IRS management agreed with the recommendation.
       Management is working to establish quality measures and procedures with plans to add
       the E-Help Desk Program to the Embedded Quality process. In addition, Contact
       Recording will be implemented in the E-Help Desk sites.
Recommendation 3: Develop processes and procedures to ensure predefined solutions are
accurately developed, timely monitored, and appropriately approved.
       Management’s Response: IRS management agreed with the recommendation.
       Management has reviewed and revised the solutions development process. The new
       process requires documentation of the source or origin of solutions, approval before a
       solution can be placed into production, and an annual review of solutions.
Recommendation 4: Develop processes and procedures to ensure management information is
complete and accurate. This should include (a) ensuring accuracy of Resolved on First Contact
indicator, (b) ensuring customer information is included in the e-case to enable an assistor to
identify previous customer contacts, (c) ensuring e-cases are created or updated for all incoming
calls, (d) monitoring and assessing the effect that EHSS downtime may have on the creation of
e-cases, and (e) reviewing the use of general solutions to determine if a new solution should have
been proposed to address the specific issue raised by the customer.



                                                                                          Page 13
                  Improvements to the E-Help Desk Are Needed to Support
                       Expanding Electronic Products and Services



      Management’s Response: IRS management agreed with the recommendation.
      Management will require weekly e-case reviews, with reports of findings to be provided
      to the Program Office and site managers for feedback and coaching purposes.
      Programming will be developed to automatically uncheck the Resolved on First Contact
      field when an e-case is reopened. Implementation of the Computer Telephony
      Integration will help ensure e-cases are created or updated for all incoming calls. In
      addition, the Program Office will monitor system downtime, and the use of general
      solutions has been removed.
Recommendation 5: Develop a process to ensure assistors complete required training.
      Management’s Response: IRS management agreed with the recommendation.
      Management has developed a process to ensure assistors have completed required
      training. The Program Office will monitor training plans to completion and will review
      random samples of employees to ensure training has been conducted.
Recommendation 6: Realign the E-Help Desk Program assistors under the BSBA office.
      Management’s Response: IRS management agreed with the recommendation.
      Management will realign E-Help Desk assistors with the office that establishes policies
      and procedures.




                                                                                       Page 14
                    Improvements to the E-Help Desk Are Needed to Support
                         Expanding Electronic Products and Services



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS E-Help Desk Program is providing
quality customer service. To accomplish this objective, we:
I.     Determined whether the IRS has established effective measures and goals for the E-Help
       Desk Program by obtaining reports used to track Program measures and goals,
       interviewing IRS management, and assessing management’s ability to monitor Program
       performance.
II.    Determined whether the IRS has a quality assurance plan for the Program by
       interviewing Program management and surveying IRS management at the four E-Help
       Desk call sites.
III.   Determined whether the assistors for the Program are properly trained.
       A. Reviewed the Internal Revenue Manual to identify training classes that are required
          for E-Help Desk assistors.
       B. Contacted IRS management at each of the four E-Help Desks call sites to determine
          whether they have any locally required training classes.
       C. Randomly selected 20 of 90 assistors (5 assistors from each of the 4 E-Help Desk call
          sites). We determined whether they had received the required training. Because we
          found that 19 assistors had not received all of the required training (1 assistor was not
          working during the time period of our review), this would be a 100 percent error rate.
          With a 100 percent error rate, 90 percent confidence level, and +5 percent precision
          rate, a sample size of zero is produced. We did not perform further testing in this
          area.
       D. When we determined the E-Help Desk assistors were not properly trained, attempted
          to determine the effect on the E-Help Desk customers and the clients they serve.
IV.    Determined the accuracy of the solutions and the accuracy and reliability of the
       management information system used in the Program.
       A. Analyzed the EHSS. The EHSS extract covered the period July 9, 2004, through
          June 1, 2006. We validated the file by verifying five e-cases on the file to the actual
          e-cases on the system. However, although we were able to validate the data, we
          determined the EHSS data are incomplete (e-cases were not always created) and the
          field relating to Resolved on First Contact was inaccurate. Many anomalies exist in
          the data, but these were the best data available from the IRS. To obtain statistics for
                                                                                           Page 15
                  Improvements to the E-Help Desk Are Needed to Support
                       Expanding Electronic Products and Services



        e-cases that were resolved on first contact, we selected the e-cases that were in both
        of the IRS-provided files: auditmainrec and casemainrec. These files were an extract
        of the EHSS. This produced 543,515 unique e-cases; 390,393 of these e-cases had a
        solution.
     B. Determined whether the IRS validates the information on the EHSS.
     C. Analyzed the solutions database from the EHSS. The solutions database contained
        542 solutions and covered the time period May 2004 to July 2006.
     D. Determined whether solutions included in the EHSS are accurate through a stop or go
        sampling plan. Stop or go sampling involves sampling a universe in increments and
        examining each incremental sample before deciding when to stop. To select the
        sample, we put the solutions in order by solution identification number and, using a
        random number generator, selected our sample. We reviewed the first 15 solutions
        selected from the 542 solutions. Because we found only 1 of the first 15 solutions to
        be incorrect, we decided not to review an additional 32 solutions to project an error
        rate. We did not pursue this issue further.
     E. Determined whether information captured in the EHSS accurately reflects the results
        of the Program by selecting a random sample of 97 questions and associated
        solutions. We determined whether the solutions matched the questions. This would
        allow us to achieve a precision rate of +5 percent given an estimated error rate of
        10 percent and a confidence level of 90 percent. To select the sample, we queried the
        543,850 unique e-cases (from the IRS-provided extract of the EHSS: auditmainrec
        file) to obtain the unique e-cases that had an associated solution. We put the resulting
        390,461 e-cases in order by e-case number. We then used a random number
        generator to select our sample.
     F. When we determined the E-Help Desk management information system was not
        accurate and reliable, attempted to determine the effect on the E-Help Desk
        customers, on the taxpayer clients they serve, and on IRS management’s ability to
        monitor the measures and goals of the Program.
V.   Determined whether the IRS has an effective process to ensure information from the
     Program is used to improve IRS processes by interviewing management and product
     owners and determining what information from the Program is provided to the IRS
     product owners.




                                                                                        Page 16
                  Improvements to the E-Help Desk Are Needed to Support
                       Expanding Electronic Products and Services



                                                                           Appendix II

                Major Contributors to This Report

Michael McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell P. Martin, Audit Manager
Pamela DeSimone, Lead Auditor
Roberta Fuller, Auditor
Kathy Henderson, Auditor
Mary Keyes, Auditor
Geraldine Vaughn, Auditor
James Allen, Information Technology Specialist




                                                                                  Page 17
                  Improvements to the E-Help Desk Are Needed to Support
                       Expanding Electronic Products and Services



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 18
                        Improvements to the E-Help Desk Are Needed to Support
                             Expanding Electronic Products and Services



                                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable effect that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; 28,178 e-cases with inadequate documentation to
    assess the accuracy of the responses provided to the customers (see page 4).

Methodology Used to Measure the Reported Benefit:

We reviewed a statistical sample of 97 e-cases and found that in 7 (7 percent) the assistors did
not adequately document the e-cases. For these seven e-cases, we were unable to determine if
the customers received the correct answers. Projecting our results over the universe of
390,461 e-cases closed with solutions, there is a potential that 28,178 e-cases have inadequate
documentation to assess the accuracy of the responses provided to the customers.
The sample size allowed us to achieve a 90 percent confidence level with an estimated
10 percent error rate and a precision rate of +5 percent. To select the sample, we queried the
543,8501 unique e-cases (from the IRS-provided file) to obtain the unique e-cases that had an
associated solution. We put the resulting 390,461 e-cases in order by e-case number. We then
used a random number generator to select our sample.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 16,101 customers received incorrect answers (see page 4).

Methodology Used to Measure the Reported Benefit:

We reviewed a statistical sample of 97 e-cases and found that in 4 (4 percent) the customers
received incorrect answers (i.e., the solutions did not address the customers’ questions).
Projecting our results over the universe of 390,461 e-cases closed with solutions, there is a
potential that 16,101 customers received incorrect answers.


1
  Our projections, based on the best data available, are conservative because e-cases were not always created for
incoming calls.
                                                                                                            Page 19
                    Improvements to the E-Help Desk Are Needed to Support
                         Expanding Electronic Products and Services



The sample size allowed us to achieve a 90 percent confidence level with an estimated
10 percent error rate and a precision rate of +5 percent. To select the sample, we queried the
543,850 unique e-cases (from the IRS-provided file) to obtain the unique e-cases that had an
associated solution. We put the resulting 390,461 e-cases in order by e-case number. We then
used a random number generator to select our sample.




                                                                                        Page 20
                        Improvements to the E-Help Desk Are Needed to Support
                             Expanding Electronic Products and Services



                                                                                                Appendix V

                         Customers of the E-Help Desk

Electronic Return Originators
        Electronic Return Originators originate the electronic submission of income tax returns to
        the IRS. An Electronic Return Originator may originate the electronic submission of
        income tax returns that are either prepared by the Electronic Return Originator firm or
        collected from a taxpayer.
Enrolled Agents
        Enrolled agents have earned the privilege of representing taxpayers before the IRS.
        Enrolled agents, like attorneys and certified public accountants, are unrestricted as to
        which taxpayers they can represent, what types of tax matters they can handle, and which
        IRS offices they can practice before.
Financial Institutions
        Financial institutions act as agents that provide financial services for their clients.
        Financial institutions are users of the E-Help Desk because they use the Taxpayer
        Identification Number1 Matching Program to assist them with perfecting their payee data
        for purposes of filing annual Information Returns, such as Miscellaneous Income (Form
        1099-MISC) or Dividends and Distributions (Form 1099-DIV). Because the majority of
        financial institutions report payments to customers on Form 1099, the Taxpayer
        Identification Number Matching Program has been instrumental in helping the financial
        institutions correct their payee information prior to filing Information Returns.
Federal Government Agencies
        Federal Government agencies contract to do business with other Federal Government
        agencies. The Central Contractor Registration is the primary registrant database for the
        Federal Government. It collects, validates, stores, and disseminates data in support of
        agency acquisition missions. Both current and potential Federal Government registrants
        are required to register in the Central Contractor Registration to be awarded contracts by
        the Federal Government. The Central Contractor Registration validates the registrant
        information and electronically shares the secure and encrypted data with the Federal


1
  A nine-digit number assigned to taxpayers for identification purposes. Depending upon the nature of the taxpayer,
the Taxpayer Identification Number is an Employer Identification Number, a Social Security Number, or an
Individual Taxpayer Identification Number.
                                                                                                          Page 21
                   Improvements to the E-Help Desk Are Needed to Support
                        Expanding Electronic Products and Services



      Government agencies’ finance offices to facilitate paperless payments through electronic
      funds transfer.
Federal Government Contractors
      Federal Government contractors do business with the Federal Government. The Central
      Contractor Registration is the primary registrant database for the Federal Government. It
      collects, validates, stores, and disseminates data in support of agency acquisition
      missions. Both current and potential Federal Government registrants are required to
      register in the Central Contractor Registration to be awarded contracts by the Federal
      Government. Registrants must update or renew their registration at least once per year to
      maintain an active status. In addition, entities (nonprofits, educational organizations,
      State and regional agencies, etc.) that apply for assistance awards from the Federal
      Government through Grants.gov must now register with the Central Contractor
      Registration. The Central Contractor Registration validates the registrant information
      and electronically shares the secure and encrypted data with the Federal Government
      agencies’ finance offices to facilitate paperless payments through electronic funds
      transfer.
Intermediate Service Providers
      Intermediate Service Providers receive tax return information from Electronic Return
      Originators, or from taxpayers that e-file from home using their personal computers,
      either online or by using commercial tax preparation software. Intermediate Service
      Providers process the tax return information and either forward the information to a
      Transmitter or send the information back to the Electronic Return Originators or
      taxpayers.
IRS Employees
      IRS employees can e-file their tax returns in IRS offices.
Large Corporations
      Large corporations are those that, for Tax Year 2005 tax returns (due in 2006) with total
      assets of $50 million or more, are required to e-file their U.S. Corporation Income Tax
      Returns (Form 1120) or U.S. Income Tax Returns for an S Corporation (Form 1120S). In
      addition, tax-exempt organizations with total assets of $100 million or more were
      required to e-file their Tax Year 2005 Returns of Organization Exempt From Income Tax
      (Form 990).
      Beginning in 2007, the e-filing requirement will be expanded to include the Tax
      Year 2006 tax returns of corporations and tax-exempt organizations with $10 million or
      more in total assets. In addition, private foundations and charitable trusts will be required
      to e-file their Returns of Private Foundation (Form 990-PF) regardless of their asset size.
                                                                                          Page 22
                        Improvements to the E-Help Desk Are Needed to Support
                             Expanding Electronic Products and Services



        The e-filing requirements apply only to entities that file at least 250 returns, including
        income tax, excise tax, information, and employment tax returns, during a calendar year.
Reporting Agencies
        Reporting agencies include accounting services, franchisers, banks, or other persons that
        are authorized to e-file Employer’s Quarterly Federal Tax Returns (Form 941) and
        Employer’s Annual Federal Unemployment (FUTA) Tax Returns (Form 940) for a
        taxpayer.
Software Developers
        Software developers write the programs to IRS specifications that make IRS e-file and
        Federal/State e-file possible. The IRS and participating States require that all software
        pass a series of tests each year. Once approved, this software may be sold and used by
        Electronic Return Originators, Reporting Agents,2 Intermediate Service Providers, and
        Transmitters.
State Tax Administration Agencies
        The IRS shares information from e-file with the States. If there is a problem, the States
        contact the E-Help Desk for resolution.
Tax Counseling for the Elderly
        The Tax Counseling for the Elderly Program provides free tax help to people age 60 and
        older. Trained volunteers from nonprofit organizations provide free tax counseling and
        basic income tax return preparation for senior citizens. E-filing of tax returns is also
        offered.
Taxpayer Assistance Centers
        The Taxpayer Assistance Centers are IRS offices that offer personal tax help when the
        taxpayer believes his or her tax issue cannot be handled online or by telephone and the
        taxpayer wants face-to-face tax assistance. E-filing of tax returns is also offered for
        certain taxpayers.
Transmitters
        Transmitters convert the file sent by a taxpayer into a format that meets IRS
        specifications and transmit it to the IRS. Transmitters must have software and modems
        that allow them to connect with IRS computers. The IRS checks the return and notifies

2
 A Reporting Agent is an accounting service, a franchiser, a bank, or other person who is authorized to prepare
electronically an Employer’s Annual Federal Unemployment (FUTA) Tax Return (Form 940), Employer’s
Quarterly Federal Tax Return (Form 941), and Employer’s Annual Federal Tax Return (Form 944).
                                                                                                           Page 23
                 Improvements to the E-Help Desk Are Needed to Support
                      Expanding Electronic Products and Services



     the Transmitter (which then informs the taxpayer) whether the return has been accepted
     or rejected.
Volunteer Income Tax Assistance Sites
     The Volunteer Income Tax Assistance Program offers free tax help to low- to
     moderate-income people who cannot prepare their own tax returns. Basic tax returns are
     prepared by volunteers across the country. E-filing of tax returns is also offered.




                                                                                     Page 24
                        Improvements to the E-Help Desk Are Needed to Support
                             Expanding Electronic Products and Services



                                                                                                Appendix VI

    Electronic Products Supported by the E-Help Desk

E-file:1
    •   U.S. Individual Income Tax Return (Form 1040).
    •   U.S. Individual Income Tax Return (Form 1040A).
    •   Income Tax Return for Single and Joint Filers With No Dependents (Form 1040EZ).
    •   Application for Automatic Extension of Time To File U.S. Individual Income Tax Return
        (Form 4868).
    •   Application for Extension of Time To File U.S. Income Tax Return (Form 2350).
    •   Installment Agreement Request (Form 9465).
    •   Notice Concerning Fiduciary Relationship (Form 56).
    •   Self-Select Personal Identification Number.
    •   Practitioner Personal Identification Number.
    •   Combined Federal State.2
    •   U.S. Individual Income Tax Declaration for an IRS e-file Return (Form 8453).
    •   U.S. Individual Income Tax Declaration for an IRS e-file Online Return
        (Form 8453-OL).
    •   Employer’s Quarterly Federal Tax Return (Form 941).
    •   Employer’s Annual Federal Unemployment (FUTA) Tax Return (Form 940).
    •   U.S. Income Tax Return for Estates and Trusts (Form 1041).
    •   U.S. Return of Partnership Income (Form 1065).
    •   Modernized e-file.
EFTPS:3
    •   EFTPS Online.
    •   EFTPS Phone.
    •   EFTPS Batch Provider.
    •   EFTPS Bulk Provider.




1
  The process of submitting tax forms over the Internet, using computers and tax preparation software.
2
  The Combined Federal State project allows for Transmitters of Information Return Program documents on tape to
file once with the IRS instead of having to file with both the IRS and the participating State income tax agencies.
3
  The EFTPS allows taxpayers and tax professionals to use the telephone, personal computer software, or the
Internet to initiate tax payments.

                                                                                                           Page 25
                        Improvements to the E-Help Desk Are Needed to Support
                             Expanding Electronic Products and Services



E-Services:4
    •   Registration.
    •   E-file Application.
    •   Disclosure Authorization.
    •   Preparer Taxpayer Identification Number.
    •   Transcript Delivery System.
    •   Electronic Account Resolution.
    •   Interactive and Bulk Taxpayer Identification Number Matching.
Central Contractor Registration:5
    •   North American Industry Classification System Codes.
    •   Standard Industrial Classification Codes.
    •   Product Service Codes.
    •   Federal Supply Classification Codes.




4
  The multiple e-services offered by the IRS to tax professionals and payers to allow them to conduct business with
the IRS electronically.
5
  The primary registrant database for the Federal Government. The Central Contractor Registration collects,
validates, stores, and disseminates data in support of agency acquisition missions.
                                                                                                           Page 26
      Improvements to the E-Help Desk Are Needed to Support
           Expanding Electronic Products and Services



                                                  Appendix VII

Management’s Response to the Draft Report




                                                         Page 27
Improvements to the E-Help Desk Are Needed to Support
     Expanding Electronic Products and Services




                                                   Page 28
Improvements to the E-Help Desk Are Needed to Support
     Expanding Electronic Products and Services




                                                   Page 29
Improvements to the E-Help Desk Are Needed to Support
     Expanding Electronic Products and Services




                                                   Page 30
Improvements to the E-Help Desk Are Needed to Support
     Expanding Electronic Products and Services




                                                   Page 31
Improvements to the E-Help Desk Are Needed to Support
     Expanding Electronic Products and Services




                                                   Page 32
Improvements to the E-Help Desk Are Needed to Support
     Expanding Electronic Products and Services




                                                   Page 33
Improvements to the E-Help Desk Are Needed to Support
     Expanding Electronic Products and Services




                                                   Page 34
